•=p

(pi /:•

an o
• fJ>;

a, l:'i

IN THE
SUPREME COURT OF THE UNITED STATES

(y(co/ /<! btjyfii ,
— PETITIONER

7*

FI LED
JUl 0 9 2020

(Your Nam
vs.
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

(NAME OF COURT THAT LASTJR

ON

ITS OF YOUR CASE)

PETITION FOR WRIT OF CERTIORARI

C/I\6usbs

hxcj

(Your iv/ame) j 23 ££ ^ o sl>

USP 'fjAAC fJaAiie.

/^Q

(Address)

'iPrr-e, Unu/e.
(City, State, Zip Code)

\s
(Phone Number)

!l\J

/

j

£
.? 3

QUESTION(S) PRESENTED

2P US.C

/.

/

MA

Ylt

fertOt /lJTaM^CL

d^

bu/~

0u

fct-

0l

2) wlrft* 'ftfa

&s-e- i3/12~ *T*

J LnAtl/uifa ^/*^^ &/****/*

UjL

/U*jM

m
7

LIST OF PARTIES

[-] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

rt A

TABLE OF CONTENTS
OPINIONS BELOW

1

Z
1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT

3

CONCLUSION

INDEX TO APPENDICES
APPENDIX A
APPENDIX B
APPENDIX C
APPENDIX D

7-1Z fjL* tifp

LU
APPENDIX E
APPENDIX F

L(S So<J j
(l

*2X/^

/rtn
UL&

4.
^y/
'yS&CTKO
<

"

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

US i

7
7
7? US Hoi7yzj-zY (/&(-)
7
3? U. 2Qy/ 2^,2?? <fX4 A/y //.f?)
/y<f /-? ^7} 73 „
CGit.& Sj/t/y. /?&&) 7
8/1^24 Ze>l/ Z/2

/U.

7)

/

/pi)

/y bth/z- IS) <32Z3X/
3z
in
(ttf: &fr.&.7y issn)
£y
7i
(/■l /
/ 57 y
{^Jhid&Gy- 8ywi4^f7u. f f22> US 327/?3£ CffflJ

7'

M J lUl,
/&4

f22 US U/ 7/
//j UJ HH3

7/?Z^
l/ft 6

7
7

7
7

7

STATUTES AND RULES

77
?

7^ 28 USC S 72 V/
•£#*. 2? 74/<3 7^777

?

f 2 257"

<§

73^

?

Hz ^ci fSi3

OTHER

tfj £U2J7, z7

uOjJj/w 7 LlS/g/gf,.

J/4JJ73 (7/7?)

7
(

fy/&(4^j </ QA

UA/SfiJK 1/ Sc
CtylSiA 1/
7 'JUvti

_7

/
)

/t>1 US 7iT 770

HV us
L'^V
S'/0 F.-u tujt'i OaSa 2°°t)
xrx /HaJQffy jTr 77^ A' 2*^

7
H
^

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix /I
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ <%is unpublished.

S_ to

The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[<] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was
1
[ ] No petition for rehearing was timely filed in my case.
[<] A timely petition for rehearing was djemed^y the United States Court of
/3 /2o2,0
Appeals on the following date:
and a copy of the
order denying rehearing appears at Appendix C
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

JL

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

/Juh ft U/OJI12-fj% l? USC S
5-?

kJc 9 2-2-5Y
? Z-25'5'
USC

9 l??3
-fit CBOfr'rf

-fu M&p, hlau^ P j
,0*^ /Pt
efPff-

W 7^ ^

3

/pit <22

STATEMENT OF THE CASE
BACKGROUND.
On 4/29/2019 the undersigned Appellant filed a civil complaint pursuant UNIQUELY to Title 18 USC Section 3192 seeking from
the lower court the specific rights and protections that this Act of Congress specifically bestows upon him.
This civil action was immediately docketed as a "Petition for Writ of Habeas Corpus" by the lower court, see ECF 1.
May 13; 2019, the lower court granted procession in forma pauperis. The lower court refused to allow the case to proceed
according to 18 USC Section 3192 by ordering the Appellant to essentially "re-file" the Section 3192 complaint as a Title 28
USC Section 2241 petition for Writ of Habeas Corpus. The lower court also ordered it would "treat" the properly indentified
Section 3192 Complaint "as a petition for habeas corpus pursuant to 28 USC Section 2241." ECF 5. (The lower court also
ordered the clerk to send the Appellant a Title 28 USC 2254 form and a "complaint form", EFC 7-1 & 12-1 respectively).
May 28, 2019, the lower court docketed a timely motion for reconsideration as to ECF. 5, specifically the "directing further
proceedings". In this motion the undersigned Appellant, pursuant to Title 28 USC Section 1331, posed specific federal
questions to the lower court. ECF 6.
These questions are:
a) Whether Title 18 USC Section 3192 as a codified act of Congress and therefore Supreme Law of the Land, (Art. VI, cl 2 US
Const.) creates a specific civil cause of action directly under said statute for those person/s to whom this statute applies and for
violation thereof in United States Courts?
b) Whether Title 18 USC Section 3192 imparts specific rights and protections to person/s to whom it applies which are directly
civilly actionable in United States Courts?
c) Whether this Court is bound by Title 18 USC Section 3192?
d) Whether this Court has jurisdiction to deny a person the right to direct civil action pursuant to Title 18 USC Section 3192
when said person is under the protection of said statute?
The lower court never addressed any of these questions. Instead, on 6/6/2019, the lower court characterized the instant 3192
complaint a a "civil rights action", (somehow comparing Section 3192 to a Title 42 USC Section 1983 civil rights complaint).
Though this thread of illogic the lower court, mapping 3192 over 1983, denied the undersigned Appellant's right to proceed
under Section 3192 jurisdiction. ECF 7.
August 13, 2019, the lower court issued a final judgment never having allowed the Appellant to seek the rights and protection
Section 3192 specifically allows.

a
CsjuOM.
*
(

'zUSiaU

7%£ Sj2n*^d/C
.—Q/^/vk (7lt<iL 1/ dejfiT -2 72

2^00?

ts*^

S'2*C

u Q'^fon, JjuJih^ stsAsJ
/-^ &Uaj/Zvt~

Ot&C&LA

/jl£&?

Yr

yljUA^d (b/KC/AxhMis /

A/OT 7Jf£ i/^A/i/'

6L

<br n ^/V&tcroA) r^AXS 6j//b££ 2f U-S.cS.
0 2sb___ CY^kz^oX‘

^ /

r^JZ^vdjL C/OozY XZI /*
Zxjpj-

/,

e

t6>

AmX^-

ftuZ) /ntFltfidju?.

/OsHL

“7&r /L

'f/jLs

rT Ydr*

(yy\jL

ot^/uT^i

7& <3yuL o

M*

r/l^Q

den //k- 6^xZ

^U

'fljis

CcY\/OCOTr^t_ $svz/~
)// (P~Yc/<-a

/&sZt /oC^) C&si&Tj

,

YXjl^

/Aeyz/Li j/j?tny

.

REASONS FOR GRANTING THE PETITION
/sr^s

!2^>vj2-'U7

Ct>^U2

The Panel, citing the 2007 decision, Collins v Holinka, 510 F.3d 666, 667 (7th Cir. Dec. 6, 2007) held Section "[2]241 covers
challenges to the validity of one’s conviction and sentence." (see: Order of March 17, 2020 at p. 4) (Appx. herewith, $ Y
This is diametrically opposed to the 2008 decision of this Court in Ihmoud v Jett, 272 Fed. Appx. 525 which held: "A motion
seeking relief on grounds concerning the execution of a sentence but NOT THE VALIDITY OF A CONVICTION FALLS LINDER
28 U.S.C.S. 2241." Id., at 526. (Appx. E>f ). [emphasis in caps]
The only wav the Panel could have ruled as it did, that is to refuse to decide "whether Title 18 USC Section 3192 creates a
private right of action" and affirm the lower court's order (Order, Appx. pp. 1-4), was to decide contrary to the STARE DECISISof Ihmoud v Jett, supra. The Panel accomplished this by using Collins v Holinka, supra, as its "authority". [FN]

'

The instant Order of the Panel is also contrary to the lower court prescribed "PETITION FOR A WRIT OF HABEAS CORPUS
UNDER 28 U.S.C. Section 2241" form which states at 2.: "Who Should Not Use This Form. You should not use this form if *
you are challenging the validity of a federal judgment of conviction and sentence (these challenges are generally raised in a
motion under 28 U.S.C. Section 2255);" (Appx.;
.
Now there are TWO distinct contrary legal realities within the United States Court of Appeals for the Seventh Circuit as to Title
28 USC Section 2241 and WHETHER this habeas corpus statute can be used to challenge "the validity of ones conviction and
sentence".
The CORRECT answer is either yes or no, IT CAN NOT BE BOTH.

'

_ I further call to this Court's attention the number of reported cases from the District Courts within this Circuit that have used
Ihmoud v Jett, supra, as controlling jurisprudential authority since it was decided in April of 2008, including Fulks v Krueger, no.
2:15-cv-33-JRS-MJD (Sept 20, 2019 S.D. Ind.) and US v Edwards, no. 95CR508-5 (June 4, 2014 N.D. III.) and at least 10
others decisions.
..The undersigned Appellant hereby petitions this Court to resolve this obvious conflict as it is THEREFORE NECESSARY to
secure and maintain uniformity of the Court’s decisions and the application of the law.

I
FN: It is painfully ironic that the Panel invoked Collins v Holinka, supra. This decision forcefully and repeatedly embodies the
fact that, "Persons who initiate independent litigation are entitled to have it resolved under grant of authority that has been
invoked." Surely this "right" apples to the undersigned Appellant and his litigation initiated under Title 18 USC Section 3192.
(Appx. pp. 10-11).

/f USCS 2 /f.2

TRULINCS 12388050 - DAY, ROGER CHARLES JR - Unit: THP-A-B

|. THE QUESTION NOW PRESENTED TO THIS COURT: WHETHER TITLE 18 SECTION 3192 CREATES A PRIVATELY
ENFORCEABLE RIGHT?
The undersigned Appellant is a person delivered by a foreign government to an agent of the United States, for the purpose of
being brought within the United States and tried for any offense which he was duly accused. Therefore, Title 18 USC Section
3192 "Protection of accused" with all its rights and obligations is applicable to the undersigned. ECF 1..
These Section 3192 rights and protections are a guarantee that the President of the United States shall take all necessary
measures for transportation and safekeeping of the accused person "until conclusion of his trial for the offenses specified in the
warrant of extradition, and until his final discharge from custody or imprisonment for or on account of such offenses, and for a
reasonable time thereafter..."; see US v DiTommaso, 817 F.2d 201,212 (2nd Cir. 1987).
Title 18 USC Section 3192 is an Act of Congress that has been in force and effect, un-repealed, for over over 150 years. This
statute bestows specific rights and protection upon a very small group of persons that are extradited by treaty. This statute also
imposes obligations upon the Executive to "protect" the person as the statute specifies and grants the Executive board
sweeping powers to accomplish the "protection of accused".
Even the title of Section 3192, "Protection of accused" supports the well understood holdings that this statute codifies a "right"
of the accused; see: US v Rauscher, 119 US 407, 423-24 (1886) (explaining Section 3192's predecessor statute embodied a
"right”); In re Reinitz, 39 F. 204, 208-09 (S.D.N.Y. 1889) (extensively explaining how and why: "the prisoner is himself clothed
with a legal right or immunity"); Ex parte Brown, 148 F. 68, 73 (Cir. Ct. S.D.N.Y. 1906) (explaining the court's duty to enforce the
3192 rights when other officials do not); Ex parte Coy, 32 F. 911 (Dist. Ct, W.D.TX 1887) (pointedly mocking the idea that 3192
as a statute is not binding on all US officials and cannot be waived); US v Alvarez-Machain, 504 US 655, 660 (1992) (making
direct reference to the importance of Rauscher Court's 3192's predecessor statute, (now Section 3192)). [FN-1]
Section 3192 as Congressional construction of all extradition treaties is "conclusive" and "binding” on the Judiciary, see Reinitz
at 208 and Brown at 71 respectively.
II. TEST ANALYSIS AS TO WHETHER SECTION 3192 CREATES A PRIVATELY ENFORCEABLE RIGHT.
The test is three part: whether the plaintiff is one of the "intended beneficiaries of the statute, whether the plaintiffs asserted
interests are not so 'vague and amorphous' as to be 'beyond the competence of the judiciary to enforce,' and whether the
statute imposes a binding obligation upon the government." Blessing v Freestone, 520 US 329, 338 (1997). see also: Cort v
Ash, 422 US 66, 78(1975).
Applying this test to the instant case, first, as established in the SCOTUS statutory interpretations of the exact language of
Section 3192, the Rauscher and Ker v Illinois, 199 US 443 courts in 1886, BOTH, held that the 3192 language "conferred"
rights upon the party extradited and it can not be disputed that the undersigned is one of the intended beneficiaries of the rights
and protection Section 3192 "confers" as the "party extradited". Second, the asserted interests of the undersigned are not
vague nor amorphous as Section 3192 is clear in its meaning and has been repeatedly interpreted and enforced by SCOTUS
and other federal and state courts for over 150 years with the remedy being succinctly described by SCOTUS in these cases as
well. Third, there is no doubt that 3192 imposes a binding obligation, ("SHALL have the power TO TAKE ALL NECESSARY
MEASURES..." and DiTommaso, supra.) upon the Executive to protect the undersigned's rights while providing the unique
authority to accomplish the statutory protection mandate.
III. THE PRESIDENT'S ALTER EGO, THE WARDEN.
"The President speaks and acts through the heads of the several departments in relation to subjects which appertain to their
respective duties...and that 'the acts of the heads of the departments, within the scope of their powers, are in law the acts of the
President"' and an "order sent'out from the appropriate executive department in the regular course of business is the legal
equivalent of the President's own order to the same effect." Wilbur v US ex rel. Barton, 46 F.2d 217, 219 (D.C. Cir. 1930)
(quoting Wilcox v Jackson, 38 US 498, 513 (1839) and Wolsey v Chapman, 101 US 755, 770 (1879)). The proper defendant in
the instant is therefore the Warden of FCC Terre Haute.
Instantly, the Appellee/Defendant Warden of FCC Terre Haute, through Federal Bureau of Prisons administrative procedures,
failed to protect the undersigned's rights as 3192 require him to have accomplished. ECF 1.
IV. TITLE 28 "HABEAS CORPUS" IS INCOMPATIBLE WITH TITLE 18 USC SECTION 3192. THE SQUARE PEG IN THE

7

TRULINCS 12388050 - DAY, ROGER CHARLES JR - Unit: THP-A-B

ROUND HOLE.
Congress intended the beneficiaries of Section 3192 to have a specific cause of action to obtain the protection that 3192
confers. Originally, the 1886 version of habeas corpus was more than sufficient to obtain relief for an aggrieved person suffering
violation of his 3192 rights. But that was a different habeas statute.
Today, Title 28 Sections 2241, 2254 and 2255 are incompatible with Congress' carefully tailored Section 3192 intent and
exclusive remedial scheme. The structure of 3192 is fundamentally incompatible with the private remedies offered by those
current Title 28 habeas corpus sections.
Section 2241 is today used exclusively by federal prisoners challenging aspects of his detention other than the legality of the
conviction or sentence, e.g., conditions of confinement. See: this Court's multi-decade repetitive jurisprudential pronouncements
on 2241's application since its enactment in 1948.
Section 2254, as for some reason suggested by the lower court, applies to state prisoners only and incompatible with 3192's
immediate federal Executive legislative mandate. 2254 has strict statute of limitations and state remedial exhaustion
requirements, all running afoul of 3192's immediate effect and continual applicability ("until conclusion of trial...and until final
discharge from custody...and a reasonable time thereafter"). 18 USC 3192.
Section 2255 also has incompatible statute of limitations language with Section 3192. 2255(f) specifically states, "A 1-year
period of limitation shall apply to a motion under this section." See: 28 USC 2255(f)(1)-(4).
There is nothing in the statutory requirements of Section 3192 that can be mapped onto the existing structure of any Title 28
federal habeas petition or motion. The instant statute of limitations for Section 3192 protection of the undersigned has not even
come close to expiring, yet, the 2254, 2255, or even 42 USC 1983 respective limitations periods expired years ago. See: Wilson
v Garcia, 471 US 261 (1985). (TCA's incompatibility with 1983 litigation based on the applicable limitations periods). Exhibits A
& B herewith.
V. AS RELIEF THE APPELLANT WAS SEEKING 3192 PROTECTION IN THE UNITED STATES DISTRICT COURT.
Title 18 USC Section 3192 is a unique statute. It bestows special rights upon a very small group of persons. It obligates and
empowers the Executive to protect these rights. As an Act of Congress, it is supreme law of the land, binding the authority of the
Judiciary: Art. VI, cl. 2 U.S. Const. Section 3192 "protection" is immediate, upon arrival in the United States, lasting longer than
the person is imprisoned. It even empowers the President (or his alter-ego) to use the land and naval forces of the United
States military against other Americans (such as recalcitrant judges or prosecutors) to effectuate the all important obligatory
protection of the accused. No other statute codifies such important powers and obligations, to protect accused and even
"condemned" persons.
It is clear that with and within the present day federal statutory habeas scheme that Congress intended Section 3192 to operate
as the exclusive remedy by which plaintiffs can obtain relief for violations of the "Protection of [the] accused".
The undersigned Appellant has properly initiated a compliant civil complaint under Title 18 USC Section 3192 jurisdiction
seeking the protection that this unique statute affords him as a person having been extradited by treaty. When these rights and
arotections are ignored and the violated, they Appellant has a specific, Section 3192 cause of action in the federal courts of the
Jnited States to seek the enforcement of these rights and the protection 3192 specifically bestows upon him.
VI. RELIEF REQUESTED
<ks Congress has provided the necessary statutory privately enforceable right under Title 18 USC Section 3192 the lower court
HAD AND HAS THE UNIQUE TITLE 18 USC 3192 JURISDICTION ALLOWING A PRIVATE SPECIFIC CAUSE OF ACTION
PURSUANT SAID STATUTE. The instant case be REMANDED with the instruction that the instant complaint be filed with the
ower court and proceed under Title 18 USC Section 3192 JURISDICTION.
Mternatively, the case REMANDED with the instruction that the lower court allow the undersigned to proceed under the
Dommon law constitutional habeas corpus procedure as existed in 1886 and to which the Rauscher Court referenced as the
'speedy remedy" to a 3192 [5275 Rev. Stat.] violation at US v Rauscher, supra, at 431.
Respectfully Submitted,

?

dawd' 0^^
MaJL

ydf

&

7%l

0A.\fc44

1A

(jjrz^u c?ls ft*
(jbuMMM™o ‘d ay^

g-M

A bdJb
ay$*"

rW>r2i f&rZL

faJuMvb* &^A

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

1

